Hnitei) States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 18, 2020
Decided June 24,2020
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-1417
PHILLIP L. HORRELL,
Petitioner-Appellant,
v.
DAVID GOMEZ,
Respondent-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 17-cv-2306
Sue E. Myerscough,

Judge.
ORDER

Phillip Horrell has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. He also has filed
several letters to the clerk, a motion "to correct an inadvertent inaccuracy" in his
application, a motion "to include additional exhibits," and motions to take "judicial
notice" of various documents. We have considered these filings and reviewed the final
order of the district court and the record on appeal. We find no substantial showing of
the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Horrell's request for a certificate of appealability and his motion to
proceed in forma pauperis are DENIED. All other pending motions are DISMISSED as
MOOT.

2:17-cv-02306-SEM # 46

Page 1 of 17

E-FILED

Wednesday, 26 February, 2020 08:49:07 AM
Clerk, U.S. District Court, ILCD

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
PHILLIP L. HORRELL,
Petitioner,
v.

Case No. 17-cv-2306

MICHAEL D. DOWNEY,
Respondent.
ORDER
SUE E. MYERSCOUGH, U.S. District Judge:
Now before the Court is Petitioner Phillip L. Horrell’s Motion to
Reopen his case pursuant to Fed. R. Civ. P. 60(b)(6) (Doc. 41) and
his Motion Requesting Transfer of his Motion to a Different District
Court Judge (Doc. 40). For the reasons explained below,
Petitioner’s Motion to Reopen (Doc. 41) is DENIED. Petitioner’s
Motion Requesting Transfer of his Motion to a Different District
Court Judge (Doc. 40) is DISMISSED AS MOOT in light of the
transfer of his case from Judge Colin S. Bruce to the undersigned
Judge.

Page 1 of 17
;/*

2:17-cv-02306-SEM # 46

Page 2 of 17

I. BACKGROUND
Petitioner is currently in the custody of the state of Illinois at
the Stateville Correctional Center in Crest Hill, Illinois. In 2013,
Petitioner pled guilty but mentally ill to one count of felony murder
and one count of attempted murder in the Circuit Court of
Kankakee County, Illinois, Case No. 2012-CF-541. He was
sentenced to life in prison for murder plus thirty years’
imprisonment for attempted murder. The trial court denied
Petitioner’s Motion to Reconsider Sentence. Petitioner appealed.
On November 1, 2015, the Illinois Appellate Court vacated all prior
post-sentencing trial court proceedings and remanded the case to
the trial court because Petitioner’s trial counsel failed to comply
with Illinois Supreme Court Rule 604(d) when presenting
Petitioner’s post-sentencing motions. Petitioner filed a Motion to
Withdraw Guilty Plea, which appears to have been pending in the
Circuit Court of Kankakee County, Illinois since 2016.
On December 8, 2017, Petitioner filed this Petition for Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254 (Doc. 1), and an
Amended Petition (Doc. 14) on March 7, 2018. The case was
assigned to United States District Judge Colin S. Bruce. On
Page 2 of 17

2:17-cv-02306-SEM # 46

Page 3 of 17

October 16, 2018, Judge Bruce dismissed Petitioner’s Petition and
Amended Petition without prejudice. (Doc. 27). Judge Bruce held
that the Petitions must be dismissed under Younger abstention
principles and because Petitioner has not yet exhausted his state
court remedies. Judge Bruce declined to grant a certificate of
appealability. Petitioner appealed, seeking a certificate of
appealability from the Seventh Circuit.
In August 2018, prior to Judge Bruce’s order dismissing
Petitioner’s case, it became public that Judge Bruce had engaged in
ex parte communications with members of the United States
Attorney’s Office in Urbana regarding certain criminal matters.
Prior to Judge Bruce’s appointment to the judiciary, he had worked
in the U.S. Attorney’s Office in Urbana, Illinois, in the Central
District of Illinois for twenty-four years, beginning in 1989. Upon
learning of the emails, then-Chief Judge Shadid temporarily
removed Judge Bruce from all cases involving the United States
Attorney’s Office in August 2018.1 See United States v. Atwood.
941 F.3d 883, 884 (7th Cir. 2019). Petitioner’s case did not concern
1 Petitioner’s Motion incorrectly contends that Judge Bruce was “taken off the
bench” shortly after the October 16, 2018 decision in Petitioner case. Mot. at 1
(Doc. 41).

Page 3 of 17

2:17-cv-02306-SEM #46

Page 4 of 17

the United States Attorney’s Office, and, therefore, Judge Bruce was
not removed from his case.
After an investigation by a Special Committee, the Judicial
Council of the Seventh Circuit admonished Judge Bruce for his
practice of ex parte communications and found that his
communications violated Canon 3(a)(4) of the Code of Conduct for
United States Judges. In re Complaints Against Dist. Judge Colin
S. Bruce, Nos. 07-18-90053, 07-18-90067 (7th Cir. Jud. Council
May 14, 2019). Judge Bruce was also ordered to remain
unassigned to matters involving the U.S. Attorney’s Office in the
Central District of Illinois until September 1, 2019. Id. However,
the Judicial Council “identified no evidence suggesting that Judge
Bruce’s ex parte contact or relationship with the U.S. Attorney’s
Office in the Central District of Illinois impacted his decision
making in any case.” Id.
Petitioner claims he did not learn of Judge Bruce’s ex parte
communications until after his appeal was pending. Petitioner filed
a motion to supplement his appeal on February 25, 2019, arguing
that Judge Bruce should have recused himself under the federal
recusal statute, 28 U.S.C. § 455(a). Horrell v. Downey, Case No.
Page 4 of 17

2:17-cv-02306-SEM # 46

Page 5 of 17

18-3399 (7th Cir.), Mot. to Supp., d/e 24. Petitioner argued that
one of the attorneys that represented him in his state proceedings,
Lawrence Beaumont, previously worked with Judge Bruce in the
United States Attorney’s Office. Petitioner’s § 2254 Petition
included claims of ineffective assistance counsel against Mr.
Beaumont. Accordingly, Petitioner argued that Judge Bruce was
required to recuse himself because he had a possible temptation to
“help” a former colleague. The Seventh Circuit denied Petitioner’s
request for a certificate of appealability and denied his pending
motions. Horrell v. Downey. Case No. 18-3399 (7th Cir. Mar. 11,
2019); Mandate (Doc. 39). Petitioner filed a Petition for Writ of
Certiorari with the Supreme Court, which was denied on June 17,
2019.
On November 5, 2019, Petitioner filed the instant motion (Doc.
41) to reopen his proceedings pursuant to Fed. R. Civ. P. 60(b)(6).
Like his supplemental motion to the Seventh Circuit, Petitioner
argues that Judge Bruce should have recused himself pursuant to
the federal recusal statute and, accordingly, he is entitled to a new
decision on his Petition. The Court finds that Petitioner has not
shown extraordinary circumstances warranting reopening his
Page 5 of 17

2:17-cv-02306-SEM # 46

Page 6 of 17

proceedings under Fed. R. Civ. P. 60(b)(6) and has not timely filed
his motion.
II. DISCUSSION
Petitioner brings his motion pursuant to Fed. R. Civ. P.
60(b)(6). Rule 60(b)(6) allows relief for judgment for any other
reason—other than the reasons listed in Rule 60(b)(1) to (5)—that
justifies relief. “A motion under Rule 60(b)(6) is addressed [in] the
district court’s discretion, and . . . requires the movant to establish
that ‘extraordinary circumstances’justify upsetting a final
decision.” Choice Hotels Inti. Inc, v. Grover, 792 F.3d 753, 754
(7th Cir. 2015) (internal citations omitted). The motion must also
be made within a reasonable time. Gonzalez v. Crosby, 545 U.S.
524, 535, 125 S. Ct. 2641, 2649 (2005). Here, the Court finds that
Petitioner has not meet either requirement.
A. Petitioner Has Not Shown Extraordinary Circumstances
Warrant Relief.
Petitioner argues that Judge Bruce was required to recuse
himself pursuant to the federal recusal statute, 28 U.S.C. § 455(a),
and, therefore, he is entitled to relief under Rule 60(b)(6). However,
Petitioner has not established extraordinary circumstances that
Page 6 of 17

2:17-cv-02306-SEM # 46

Page 7 of 17

warrant upsetting the decision because he has not shown a
violation of § 455, and, even if he had, any violation would have
been harmless.
Section 455(a) provides, “[a]ny justice, judge, or magistrate
judge of the United States shall disqualify himself in any proceeding
in which his impartiality might reasonably be questioned.” IcL
Here, however, the Court does not find that a § 455(a) violation has
occurred. Upon discovery of Judge Bruce’s ex parte emails, thenChief Judge Shadid temporarily removed Judge Bruce from cases
that concerned the U.S. Attorney’s Office. Petitioner’s case did not
involve the U.S. Attorney’s Office, so removal was not deemed
necessary, even as a precaution. Petitioner still claims that recusal
was necessary because Judge Bruce and Petitioner’s former defense
attorney, Mr. Beaumont, both worked at the U.S. Attorney’s Office
in the 1990s, and Petitioner’s Petition included claims of ineffective
assistance of counsel by Mr. Beaumont. However, Petitioner has
provided no evidence that Judge Bruce was biased towards Mr.
Beaumont or against Petitioner.
Petitioner claims that the ex parte communications of Judge
Bruce provide the requisite evidence of the appearance of bias. As
Page 7 of 17

2:17-cv-02306-SEM # 46

Page 8 of 17

Petitioner notes, the Seventh Circuit has already held that Judge
Bruce’s ex parte communications do show an appearance of bias
towards the United States Attorney’s Office. United States v.
Atwood, 941 F.3d 883, 884 (7th Cir. 2019); see also. United States
v. Williams, No. 18-3318, 2020 WL 632712, at *5 (7th Cir. Feb. 11,
2020). But, there is no rational basis to extend this finding of an
appearance of bias toward anyone who ever worked at the U.S.
Attorney’s Office with Judge Bruce or any other conceivable friends
or acquaintances of Judge Bruce. Judges are part of the legal
community, and it comes as no shock that judges may have had a
past working relationship with attorneys that come before them or
who are mentioned in claims of ineffective assistance of counsel.
However, there is a presumption that judges can rise above any
potential biases, including friendships. See United States v.
Williams, No. 18-3318, 2020 WL 632712, at *3 (7th Cir. Feb. 11,
2020) (“Courts presume that judges are honest, upright individuals
who rise above biasing influences”) (citing Franklin v. McCaughtry,
398 F.3d 955, 959 (7th Cir. 2005)); United States v. Murphy, 768
F.2d 1518, 1537-38 (7th Cir. 1985) (noting individual friendships

Page 8 of 17

2:17-cv-02306-SEM #46

Page 9 of 17

between lawyers and judges is not only allowed, but desirable).
Here, Petitioner has failed to even show evidence of a
friendship, let alone any evidence that Judge Bruce was unable to
overcome a potential bias that Judge Bruce and Mr. Beaumont’s
shared tenure at the United States Attorney’s Office in the 1990s
may have created. Accordingly, the Court finds that Petitioner has
not shown that there was an appearance of bias in his case
regardless of Judge Bruce’s ex parte communications with certain
members of the United States Attorney’s Office. Therefore, he has
not shown a violation of § 455(a).
Moreover, even if Petitioner had shown a § 455(a) violation, the
Court finds that the error in failing to recuse was harmless. See
Williamson v. Indiana Univ., 345 F.3d 459, 464 (7th Cir. 2003)
(holding that where a litigant shows a violation of § 455, relief under
“Rule 60(b) is not automatically justified if [the] error was
harmless”). In Lilieberg v. Health Servs. Acquisition Corn.. 486 U.S.
847, 108 S. Ct. 2194 (1988), the Supreme Court set forth the
factors to consider in determining whether Rule 60(b)(6) relief is
available for a violation of § 455(a): “[I]t is appropriate to consider
the risk of injustice to the parties in the particular case, the risk
Page 9 of 17

2:17-cv-02306-SEM # 46 Page 10 of 17

that the denial of relief will produce injustice in other cases, and the
risk of undermining the public’s confidence in the judicial process.”
Id. at 864.
The Seventh Circuit addressed Judge Bruce’s ex parte
communications and applied the Lilieberg factors in two recent
cases. First, in United States v. Atwood, 941 F.3d 883 (7th Cir.
2019), the defendant had pled guilty and Judge Bruce had presided
over the defendant’s sentencing hearing. The criminal case was
prosecuted by the U.S. Attorney’s Office. The Seventh Circuit found
that Judge Bruce’s failure to recuse himself under the federal
recusal statute in light of the ex parte communications was not
harmless error and remanded for resentencing. The Seventh
Circuit evaluated the three factors outlined in Lilieberg and found
that all three factors weighed in favor of resentencing. Specifically,
the Seventh Circuit noted the discretion afforded a judge during
sentencing, the potential to “‘prevent a substantive injustice in
some future case’. . ., by encouraging judges to exercise caution in
their communications,” and that “[allowing Atwood’s sentence to
stand would undermine the public’s confidence in the fairness of
this sentence and in the impartiality of the judiciary.” Id. at 886.
Page 10 of 17

2:17-cv-02306-SEM # 46

Page 11 of 17

Accordingly, the Seventh Circuit remanded for resentencing by a
different judge. Id.
Next, in United States v. Williams. No. 18-3318, 2020 WL
632712 (7th Cir. Feb. 11, 2020), the Seventh Circuit again
addressed Judge Bruce’s ex parte communications in a case where
he had presided over the defendant’s trial, but not sentencing
hearing. However, the Seventh Circuit found the facts of Williams
distinguishable from Atwood because Judge Bruce had only
presided, over the jury trial and not the sentencing hearing. “This
distinction matters because judges generally have more discretion
over sentencing than the outcome of a jury trial.” IcL at *6.
Turning to the Liljeberg factors, the Seventh Circuit found all
factors pointed against granting a new trial. With regard to the
second factor, the risk that the denial of the requested relief will
produce injustice in future cases, the Seventh Circuit noted that
the Special Committee’s public findings and the Judicial Council’s
Order had already minimized against the risk of future violations.
Id. at *7.
As in the Williams case, the Court finds that the Liljeberg
factors suggest harmless error—to the extent there was any error.
Page 11 of 17

2:17-cv-02306-SEM # 46

Page 12 of 17

Under the first factor, there is little risk of injustice to Petitioner in
this particular case. Judge Bruce’s decision in this matter was
based on an application of legal precedent and did not turn on any
discretionary fact-finding.2 See Atwood. 941 F.3d at 885 (noting, by
contrast, the “open-endedness of the sentencing factors [which]
leaves ample room for the court’s discretion”); Williams, 2020 WL
632712 at *6 (finding that there was little risk of injustice to the
defendant where there was no evidence of prejudice in the pre-trial
or trial motions ruled upon by Judge Bruce). Petitioner has shown
no evidence of prejudice in Judge Bruce’s ruling, and any error in
his rulings could have been addressed on appeal. Notably,
Petitioner did appeal, and the Seventh Circuit affirmed Judge
Bruce’s decision and judgment. Unlike a new trial, there is less risk
of injustice to the government, but the government would still be

2 The Court notes that Petitioner’s Motion states: “I was deemed guilty by
Judge Bruce” and “Judge Bruce ruled that the “crimes I committed” and the
“gravity” of them just renders me guilty without need for merits-based review.”
Mot. at 9, 18 (Doc. 41). However, Judge Bruce’s order dismissing the case
without prejudice made no determinations on the merits of his claim. This
ruling was because he had not exhausted his claims at the state level and had
not made a showing of extraordinary circumstances warranting a federal court
hearing unexhausted claims. Judge Bruce’s mention of the “gravity’ of
Petitioner’s convictions was to provide context for the delay by the state court.
See J. Bruce Order at 7 (Doc. 27). Petitioner is still entitled to bring his claims
in the future after his state court proceedings have concluded.

Page 12 of 17

2:17-cv-02306-SEM # 46

Page 13 of 17

required to spend at least some valuable time and resources
briefing this case should the requested relief be granted. Therefore,
the first Lilieberg factors weighs against Petitioner.
Next, the second Lilieberg factor concerns the risk of injuries
to litigants in future cases. In Atwood, the Seventh Circuit was
addressing the impact of Judge Bruce’s emails on a case that did
concern the United States Attorney’s Office—a criminal case in
which Judge Bruce presided over the sentencing hearing. Atwood.
941 F.3d at 884. The Seventh Circuit found that the second
Lilieberg factor favored the defendant because enforcing § 455(a)
“encouraged judges to exercise caution in their communications.”
Id. at 885. However, evaluating the same factor in Williams, the
Seventh Circuit found that the factor counselled against granting
relief because the Special Committee’s public report and Judicial
Council’s Order, as well as Judge Bruce’s new policies prohibiting
any email communications with counsel, mitigated against any
future risk of injustice to other parties. Williams, 2020 WL 632712
at *6. Here, Petitioner’s claim is still loosely related to Judge
Bruce’s email communications, and, therefore, could conceivably
still have some encouraging effect for judges to exercise caution in
Page 13 of 17

2:17-cv-02306-SEM # 46 Page 14 of 17

their communications as the Seventh Circuit found in Atwood.
However, in light of Williams, this Court, too, finds that the risks
have been mitigated and that this factor leans toward denying
Petitioner’s requested relief.
Finally, the Court finds there is little risk of harm to the
public’s confidence in the impartiality of the judiciary by upholding
this decision. As the Court said above, any errors that Judge Bruce
committed in analyzing Petitioner’s claims could have been
appealed to the Seventh Circuit. Since the Seventh Circuit already
affirmed Judge Bruce’s decision, “the act of vacating the district
court’s judgment would be counterproductive, inefficient, and
would serve only to weaken public confidence by undermining the
finality of judgments.” Williamson v. Indiana Univ., 345 F.3d 459,
465 (7th Cir. 2003); Williams, 2020 WL 632712 at *7 (finding that
because there was no evidence of actual bias, “overturning a jury
verdict based purely on the appearance of bias creates a risk that
the public will lose confidence in the judicial process”). Accordingly,
the third Lilieberg factor does not favor relief.
Overall, after evaluating the three Lilieberg factors, the Court
finds that, even if Petitioner had shown a violation of § 455(a), he
Page 14 of 17

2:17-cv-02306-SEM # 46

Page 15 of 17

has not shown extraordinary circumstances warranted vacating the
judgment under Rule 60(b)(6).
B. Petitioner’s Motion Was Not Made Within a Reasonable
Time.
Even if Petitioner could have shown extraordinary
circumstances warranting relief, the unreasonable delay in filing his
Motion also constitutes grounds to deny his Motion. “What
constitutes ‘reasonable time’ depends upon the facts of each case,
taking into consideration the interest in finality, the reason for
delay, the practical ability of the litigant to learn earlier of the
grounds relied upon, and [the consideration of] prejudice [if any] to
other parties.” Kagan v. Caterpillar Tractor Co.. 795 F.2d 601, 610
(7th Cir. 1986). “In the typical ‘extraordinary’ case, . . .there just is
no way the party seeking to set aside the judgment could have
discovered the ground for doing so within a year of its entry.” Lowe
v. McGraw-Hill Companies. Inc.. 361 F.3d 335, 342 (7th Cir. 2004)
(internal citations omitted), i
Here, the evidence of Judge Bruce’s ex parte communications
was made public in August 2018. As Judge Bruce did not enter the
judgment in this case until October 16, 2018, Petitioner could have
Page 15 of 17

2:17-cv-02306-SEM # 46

Page 16 of 17

filed a timely motion to recuse prior to the entry of judgment. In
Petitioner’s Motion, he admits to learning that Judge Bruce was
"taken off the bench” by at least October 2018. Mot. at 2 (Doc. 41).
Accordingly, Petitioner was on notice of his potential claim
regarding Judge Bruce’s impartiality at least by October 2018.
Petitioner claims that he “did not learn why [Judge Bruce was
removed from cases] until” United States v. Atwood, 941 F.3d 883,
884 (7th Cir. 2019), was decided on October 24, 2019. Mot. at 2
(Doc. 41). However, this statement is not accurate, as Petitioner
was certainly aware of the basis for his Rule 60(b)(6) Motion by the
time Petitioner sought to supplement the record on appeal on
February 25, 2019. See Horrell v. Downey, Case No. 18-3399 (7th
Cir.), Mot. to Suppl. (seeking to add claim that Judge Bruce should
have recused himself under 28 U.S.C. § 455(a) for the same reasons
presented in this Motion). Even if Petitioner sought to delay filing
the instant Rule 60(b)(6) Motion until after the Supreme Court’s
denial of his petition for writ of certiorari, Petitioner’s four-month
delay between the Supreme Court’s denial of his petition for writ of
certiorari on June 17, 2019 and filing this Motion on November 5,
2019 is not reasonable. Accordingly, the Court finds that
Page 16 of 17

2:17-cv-02306-SEM # 46 Page 17 of 17

Petitioner’s motion was not filed within a reasonable time and
would deny the motion on this basis as well.
III. CONCLUSION
For the reasons stated above, Petitioner Phillip L. Horrell’s
Motion to Reopen Pursuant to Rule 60(b)(6) (Doc. 41) is DENIED.
Petitioner’s Motion Requesting Transfer of his Motion to a Different
District Court Judge (Doc. 40) is DISMISSED AS MOOT in light of
the transfer of his case the undersigned judge.

SIGNED: February 26, 2020

A/Sue/E. Myerzcough/
SUE E. MYERSCOUGH
UNITED STATES DISTRICT JUDGE

Page 17 of 17

